CERTIFICATE OF SERVICE
No. TBD
Teresita A. Canuto
Petitioner(s)
v.
Nancy Pelosi, Rep., et al.
Respondent(s)
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
Teresita A. Canuto Petition for Writ of Certiorari, by mailing one true and correct copy of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Douglas N. Letter
U.S. House of Representatives
Office of General Counsel
219 Camion House Office Building
Washington, DC 20515
(202) 225-9700
douglas. letter @mail .house. gov
. Counsel for All
House ofRepresentatives Respondents

Catherine Abigial Joan Woodbridge
Office of the Attorney General, State of California
1300 I Street, 12th Floor
Suite 125
Sacramento, CA 95814-2550
(916)210-7526
catherine.woodbridge@doj.ca.gov
Counsel for Gavin Newsom

Eric Garcetti
Mayor, City of Los Angeles
200 N. Spring Street
Los Angeles, CA 90012
Respondent Eric Garcetti

an Sewfar
August 12, 2020
SCP Tracking: Canuto-8101 Langdon Avenue, #30-Cover White

